(

t 9 ■ 116 4
No.

Firm'
FEB 1 1 2020

3ht tlje

Supreme Court of tfje {Hntteb B>tateiMpM^l^mK
Jocelyn A. Johnson,
Petitioner,
v.
Workers’ Compensation Appeals Board of the
State of California, Coca-Cola Bottling
Company, Alexis Risk Management,. Kemper
Insurance, Broadspire,
Respondents.
On Petition for Writ of Certiorari to the
Supreme Court of California
PETITION FOR WRIT OF CERTIORARI
Jocelyn A. Johnson
5329 Clark Street
Lynwood, CA 90262
(562) 502-0546
Petitioner Pro Se
!

MAR 1 6 2020
luPREEM0EFCTOURTLnRQK

1

QUESTIONS PRESENTED
1. Does the Workers’ Compensation Judge relying on
medical reports according to Senate Bill 31
guidelines and not the permanent disability rating
, schedule a denial of due process?
2. Does the Workers’ Compensation Judge omitting
substantial medical evidence and reports deny due
process under the Fourteenth Amendment?
3. Does Workers’ Compensation Appeals Board
prematurely destroying the Board’s adjudication
files deny due process?
4. Whether the
statute
of limitations is
unconstitutional when the Due Process Clause of
the Fourteenth Amendment is violated?

11

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

TABLE OF AUTHORITIES.

IV

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED. . . 1
STATEMENT

7

REASONS FOR GRANTING THE PETITION .... 8
A State Court of Appeals has so far departed
from the accepted and usual course of Judicial
proceeding as to call for an exercise of this
Court’s Supervisory Power....................................
CONCLUSION

8
10

APPENDIX
Appendix A Order in the Supreme Court of California
(November 13, 2019)
App. 1
Appendix B Order in the Court of Appeal of the
State of California Second Appellate
District Division Three
(September 10, 2019)
App. 2
Appendix C Opinion and Order Denying Petition
for Reconsideration in the Worker’s
Compensation Appeals Board State of
California
(November 13, 2019)
App. 3

Ill

Appendix D Findings and Order Opinion on
Decision in the Worker’s
Compensation Appeals Board State of
California
(March 5, 2019)
App. 10
Appendix E Letter from the Department of
Industrial Relations Dated August 14,
1998
App. 14
Appendix F Letter from the Department of
Industrial Relations Dated January
27, 2000
App. 16

IV

TABLE OF AUTHORITIES
CASES
Beverly Hills Multispecialty Group Inc v. WCAB,
26 Cal. App. 4th 789 (1994).............................

8

Cedeno v. American National Insurance Co.
62 Cal.Comp.Cases 939 (1997)................

9

Escorbo v. Marshalls,
70 Cal. Comp Cases 604 (2006)............................. 8
Flores v. Reegs, Inc.,
2014 Cal. Wrk. Comp. P.D. LEXIS 427 ................ 9
Fortich v. WCAB,
233 Cal. App. 3d 1453 (1991).............................

9

Gangwish v. Workers’ Compensation Appeals Board,
9
89 Cal. App. 4th 1287 (2001).............................
Redner v. Worker’s Comp. Appeals Board,
5 Cal. 3d 83, 95 Cal. Rptr. 447,
485 P.2d 799 (1971)........................................ ..

8

Rucker v. Worker’s Compensation Appeals Board,
82 Cal. App. 4th 151 (2000)............................. 8, 9
Tyler v. Workers’ Compensation Appeals Board,
56 Cal. App. 4th 389 (1997)...........................

9

CONSTITUTION AND STATUTES
U.S. Const, amend. XIV, § 1

passim

Cal. Const. Art. Ill, § 1.........

4,5

Cal. Const. Art. XIV, § 4 ...

2, 3, 4, 5

V

28 U.S.C. § 1257(a)......................

1

28 U.S.C. § 2403(a)......................

1

Cal. Code of Regulations Title 8
§ 10208.7(a) 1-10....................

8

Cal. Insurance Code § 1871.4 . .

5, 6

Cal. Labor Code § 5950 ...........

6

Cal. Labor Code § 5951 ...........

7

Cal. Labor Code § 5952(d).......

8

Cal. Penal Code § 550 .............

4, 5

1
OPINIONS BELOW
The Supreme Court of California Order denying
review, dated November 13, 2019. App. 1. The Court of
Appeal of the State of California Second Appellate
District Division Three Order denying the petition for
a writ of review, dated September 10, 2019. App. 2. The
Opinion and Order Denying Petition for
Reconsideration in the Worker’s Compensation Appeals
Board State of California, dated November 13, 2019.
App. 3. The Findings and Order Opinion on Decision
Opinion in the Worker’s Compensation Appeals Board
State of California, dated March 5, 2019. App. 10. All
of the above decisions are unpublished.
JURISDICTION
This Petition for a Writ of Certiorari is filed within
90 days of the denial of the California Supreme Court
for a hearing order entered on November 13, 2019. The
Court’s Jurisdiction is invoked pursuant to 28 U.S.C.
§ 1257(a) and 28 U.S.C. § 2403(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution Fourteenth Amendment
§1:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of

2
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
California Constitution Article XIV § 4:
The Legislature is hereby expressly vested with
plenary power, unlimited by any provision of
this Constitution, to create, and enforce a
complete system of workers’ compensation, by
appropriate legislation, and in that behalf to
create and enforce a liability on the part of any
or all persons to compensate any or all of their
workers for injury or disability, and their
dependents for death incurred or sustained by
the said workers in the course of their
employment, irrespective of the fault of any
party. A complete system of workers’
compensation includes adequate provisions for
the comfort, health and safety and general
welfare of any and all workers and those
dependent upon them for support to the extent
of relieving from the consequences of any injury
or death incurred or sustained by workers in the
course of their employment, irrespective of the
fault of any party; also full provision for securing
safety in places of employment; full provision for
such medical, surgical, hospital and other
remedial treatment as is requisite to cure and
relieve from the effects of such injury; full
provision for adequate insurance coverage
against liability to pay or furnish compensation;
. full provision for regulating such insurance
coverage in all its aspects, including the

3
establishment and management of a state
compensation insurance fund; full provision for
otherwise securing the payment of
compensation; and full provision for vesting
power, authority and jurisdiction in an
administrative body with all the requisite
governmental functions to determine any
dispute or matter arising under such legislation,
to the end that the administration of such
legislation shall accomplish substantial justice
in all cases expeditiously, inexpensively, and
without incumbrance of any character; all of
which matters are expressly declared to be the
social public policy of this State, binding upon all
departments of the state government.
The Legislature is vested with plenary powers,
to provide for the settlement of any disputes
arising under such legislation by arbitration, or
by an industrial accident commission, by the
courts, or by either, any, or all of these agencies,
either separately or in combination, and may fix
and control the method and manner of trial of
any such dispute, the rules of evidence and the
manner of review of decisions rendered by the
tribunal or tribunals designated by it; provided,
that all decisions of any such tribunal shall be
subject to review by the appellate courts of this
State. The Legislature may combine in one
statute all the provisions for a complete system
of workers’ compensation, as herein defined.
The Legislature shall have power to provide for
the payment of an award to the State in the case

4
of the death, arising out of and in the course of
the employment, of an employee without
dependents, and such awards may be used for
the payment of extra compensation for
subsequent injuries beyond the liability of a
single employer for awards to employees of the
employer.
Nothing contained herein shall be taken or
construed to impair or render ineffectual in any
measure the creation and existence of the
industrial accident commission of this State or
the state compensation insurance fund, the
creation and existence of which, with all the
functions vested in them, are hereby ratified and
confirmed.
California Constitution Article III § 1:
The State of California is an inseparable part of
the United States of America, and the United
States Constitution is the supreme law of the
land.
California Penal Code § 550
(a) It is unlawful to do any of the following, or to aid,
abet, solicit, or conspire with any person to do any of
the following:
ic 'k "k

(10) For purposes of paragraphs (6) to (9), inclusive, a
claim or a claim for payment of a health care benefit
also means a claim or claim for payment submitted by

5
or on the behalf of a provider of any workers’
compensation health benefits under the Labor Code.
(b) It is unlawful to do, or to knowingly assist or
conspire with any person to do, any of the following:
(1) Present or cause to be presented any written or oral
statement as part of, or in support of or opposition to,
a claim for payment or other benefit pursuant to an
insurance policy, knowing that the statement contains
any false or misleading information concerning any
material fact.
(2) Prepare or make any written or oral statement that
is intended to be presented to any insurer or any
insurance claimant in connection with, or in support of
or opposition to, any claim or payment or other benefit
pursuant to an insurance policy, knowing that the
statement contains any false or misleading information
concerning any material fact.
(3) Conceal, or knowingly fail to disclose the occurrence
of, an event that affects any person’s initial or
continued right or entitlement to any insurance benefit
or payment, or the amount of any benefit or payment to
which the person is entitled.
California Insurance Code § 1871.4
(a) It is unlawful to do any of the following:
(1) Make or cause to be made a knowingly false or
fraudulent material statement or material
representation for the purpose of obtaining or denying
any compensation, as defined in Section 3207 of the
Labor Code.

6
(2) Present or cause to be presented a knowingly false
or fraudulent written or oral material statement in
support of, or in opposition to, a claim for compensation
for the purpose of obtaining or denying any
compensation, as defined in Section 3207 of the Labor
Code.
(3) Knowingly assist, abet, conspire with, or solicit a
person in an unlawful act under this section.
(4) Make or cause to be made a knowingly false or
fraudulent statement with regard to entitlement to
benefits with the intent to discourage an injured
worker from claiming benefits or pursuing a claim.

California Labor Code § 5950
Any person affected by an order, decision, or award of
the appeals board may, within the time limit specified
in this section, apply to the Supreme Court or to the
court of appeal for the appellate district in which he
resides, for a writ of review, for the purpose of
inquiring into and determining the lawfulness of the
original order, decision, or award or of the order,
decision, or award following reconsideration. The
application for writ of review must be made within 45
days after a petition for reconsideration is denied, or, if
a petition is granted or reconsideration is had on the
appeal board’s own motion, within 45 days after the
filing of the order, decision, or award following
reconsideration.

7
California Labor Code § 5951
The writ of review shall be made returnable at a time
and place then or thereafter specified by court order
and shall direct the appeals board to certify its record
in the case to the court within the time therein
specified. No new or additional evidence shall be
introduced in such court, but the cause shall be heard
on the record of the appeals board, as certified to by it.
STATEMENT
On December 21, 2017, Petitioner Jocelyn A.
Johnson filed a Declaration of Readiness to Proceed as
instructed by information and assistance officers
Douglass Ross and Rosa Stephanian. On August 29,
2018, a hearing was held where pretrial statements
were submitted. Workers’ Compensation Judge Penny
Barbosa limited the issue to fraud only. January 31,
2019 trial was held. Evidence from applicant and
defendant Coca-Cola Bottling Company were submitted
on March 5, 2019. Workers’ Compensation Judge
Cassandra V. Stajdunar finding and order opinion on
decision issued. On March 25, 2019, a petition for
reconsideration was filed with the Workers’
Compensation Appeals Board on the following grounds:
U.S. Constitution Fourteenth Amendment § 1,
California Constitution Article XIV § 4, and Article III
§ 1. A Petition for Writ of Review filed July 8,. 2019.
California Court of Appeal Second District order
denying review on September 10, 2019. A Petition for
Review filed in the California Supreme Court on
September 20, 2019, and was denied on November 13,
2019.

8
REASONS FOR GRANTING THE PETITION
A State Court of Appeals has so far
departed from the accepted and usual
course of Judicial proceeding as to call for
an exercise of this Court’s Supervisory
Power.
When the WCAB prematurely destroyed petitioner’s
adjudication file in violation of Cal Code of Regulations
Title 8 § 10208.7(a) 1-10, it deprived petitioner of her
due process rights under the Fourteenth Amendment.
Due Process guarantees a right to a fair hearing in
Workers’ Compensation Proceedings as expressly
affirmed in Beverly Hills Multispecialty Group Inc v.
WCAB, 26 Cal. App. 4th 789, 806 (1994). “A denial of
due process to a party ordinarily compels annulment of
the Board’s decision only if it is reasonably probable
that absent the procedural error, the party would have
attained a more favorable result.” Redner v. Worker’s
Comp. Appeals Board (1971) 5 Cal. 3d 83, 93 [95 Cal.,
Rptr. 447, 485 P.2d 799],
The Workers’ Compensation Appeals Board
premature destruction of records wrongly deprives
injured workers of the right of Judicial Review. In
Escorbo v. Marshalls, 70 Cal. Comp Cases 604 (2006),
the WCAB set forth the requirements of substantial
evidence at 620-621 in this en banc decision. It is well
established that any decision of the WCAB must be
supported by substantial evidence. Lab. Code § 5952(d).
In Rucker v. Worker’s Compensation Appeals Board,
[82 Cal. App. 4th 153], the Board is bound by the due
process clause of the Fourteenth Amendment to the

9
United States Constitution to give the parties before it
a [82 Cal. App. 4th 158] fair and open hearing. The
right to such a hearing is one of the rudiments of fair
play assured to every litigant by the Fourteenth
Amendment as a minimal requirement.
Tyler v. Workers’ Compensation Appeals Board
(1997) 56 Cal. App. 4th 389 [65 Cal. Rptr. 2d 431] held
that under the circumstances, due process required the
development of the evidentiary record to enable a
complete adjudication of the issues.
In Gangwish v. Workers’ Compensation Appeals
Board [89 Cal. App. 4th 1287] the Court of Appeals
found that Ganwish was denied due process when he
complains he was denied the opportunity for rebuttal,
which violated due process. Gangwish is correct.
In Fortich v. WCAB (1991), an elementary and
fundamental requirement of due process in any
proceeding which is to be accorded finality is notice
reasonably calculated, [233 Cal. App. 3d 1453] under
all the circumstances, to apprise interested parties of
the pendency of the action and afford them an
opportunity to present their objections.
In Flores v. Reegs, Inc., 2014 Cal. Wrk. Comp. P.D.
LEXIS 427, the Workers’ Compensation Appeals Board
found nine violations of the parties’ right to due process
when the WCJ issued determinations on several issues
that had not been submitted at trial. See also, Cedeno
v. American National Insurance Co., 62
Cal.Comp.Cases 939 (1997).

10
CONCLUSION
For the reasons set forth above, this court should
grant the petition for Certiorari.
Respectfully submitted,
Jocelyn A. Johnson
5329 Clark Street
Lynwood, CA 90262
(562) 502-0546
Petitioner Pro Se

xiauadav

•

1

APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Supreme Court of California
(November 13, 2019)
App. 1
Appendix B Order in the Court of Appeal of the
State of California Second Appellate
District Division Three
(September 10, 2019)
App. 2
Appendix C Opinion and Order Denying Petition
for Reconsideration in the Worker’s
Compensation Appeals Board State of
California
(November 13, 2019)
App. 3
Appendix D Findings and Order Opinion on
Decision in the Worker’s
Compensation Appeals Board State of
California
(March 5, 2019)
App. 10
Appendix E Letter from the Department of
Industrial Relations Dated August 14,
1998
App. 14
Appendix F Letter from the Department of
Industrial Relations Dated January
27, 2000
App. 16

